<html>
<title> - SAVING TAXPAYER DOLLARS: FREEZING THE FEDERAL REAL ESTATE FOOTPRINT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             SAVING TAXPAYER DOLLARS: FREEZING THE 

                 FEDERAL REAL ESTATE FOOTPRINT
=======================================================================

                                (113-18)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
81-150                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
THOMAS E. PETRI, Wisconsin           ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
BLAKE FARENTHOLD, Texas, Vice Chair  DONNA F. EDWARDS, Maryland
MARKWAYNE MULLIN, Oklahoma           RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
VACANCY                              TIMOTHY J. WALZ, Minnesota
BILL SHUSTER, Pennsylvania (Ex       NICK J. RAHALL, II, West Virginia
    Officio)                           (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Dorothy Robyn, Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     5
E.J. Holland, Jr., Assistant Secretary for Administration, U.S. 
  Department of Health and Human Services........................     5
Jeffery Orner, Chief Readiness Support Officer and Agency Senior 
  Real Property Officer, U.S. Department of Homeland Security....     5
R. William Borchardt, Executive Director for Operations, U.S. 
  Nuclear Regulatory Commission..................................     5

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Dorothy Robyn:

    Prepared statement...........................................    38
    Answers to questions from the following Representatives:

        Hon. Lou Barletta, of Pennsylvania, and Hon. Eleanor 
          Holmes Norton, of the District of Columbia.............    46
        Hon. John L. Mica, of Florida............................    48
E.J. Holland, Jr.:

    Prepared statement...........................................    51
    Answers to questions from the following Representatives:

        Hon. Lou Barletta, of Pennsylvania, and Hon. Eleanor 
          Holmes Norton, of the District of Columbia.............    57
        Hon. Donna F. Edwards, of Maryland.......................    58
Jeffery Orner:

    Prepared statement...........................................    60
    Answers to questions from Hon. Donna F. Edwards, of Maryland.    64
R. William Borchardt:

    Prepared statement...........................................    67
    Answers to questions from the following Representatives:

        Hon. Lou Barletta, of Pennsylvania, and Hon. Eleanor 
          Holmes Norton, of the District of Columbia.............    73
        Hon. Donna F. Edwards, of Maryland.......................    74


[GRAPHIC] [TIFF OMITTED] 81150.001

[GRAPHIC] [TIFF OMITTED] 81150.002

[GRAPHIC] [TIFF OMITTED] 81150.003

[GRAPHIC] [TIFF OMITTED] 81150.004

[GRAPHIC] [TIFF OMITTED] 81150.005



  SAVING TAXPAYER DOLLARS: FREEZING THE FEDERAL REAL ESTATE FOOTPRINT

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. Before we begin the hearing today, I would 
like to take a moment to say our thoughts and prayers are with 
the people and communities devastated by the recent tornadoes. 
In Moore, Oklahoma, the tornado left destruction of a mile wide 
and 20 miles long. Schools and homes were flattened, 
communities destroyed, incredible and unimaginable devastation. 
But much more devastating and heartwrenching than that is that 
many more people lost their lives, including many children. 
Having walked through and spoken with survivors of previous 
disasters, including those in my home district in Pennsylvania 
following Irene and Lee, the pain the residents are enduring is 
incredible and often unbearable. Losing loved ones, losing 
their homes, and possessions, heirlooms, memories.
    As the chairman of the subcommittee that oversees FEMA, we 
will do our part in monitoring the Federal response and 
ultimately the rebuilding as families try and put their lives 
back together. FEMA has declared a major disaster for Oklahoma 
and Federal, State and local first responders continue to work 
around the clock. And we will work with Representative Mullin 
of our subcommittee and our Members representing districts in 
Oklahoma. Obviously we know some things are irreplaceable. But 
what we can do is support those communities devastated and help 
communities rebuild. If any Members need to be linked to the 
FEMA update or have questions regarding this and other recent 
disasters, please let the committee staff know.
    The committee will come to order. Before we begin today's 
hearing I would like to personally offer my congratulations to 
former Acting Commissioner Dan Tangherlini who has now been 
named the real full Administrator, Commissioner, and we wish 
him well. With that being said, hopefully we can get this 
problem resolved and get off on the right foot.
    The purpose of today's hearing is to review the 
administration's efforts to freeze the footprint of Federal 
office space and to explore how Congress can help save billions 
of taxpayer dollars on Federal real estate. The President's 
efforts began to take shape in 2010. The administration issued 
a Presidential memorandum to save billions of dollars in real 
estate activities.
    In March 2013, OMB issued another directive requiring 
agencies to freeze their real estate footprints and offset any 
increases with decreases in their inventory. Over the last 
several years, the committee has made an aggressive effort to 
cut GSA's lease cost as well. The committee shrunk the size of 
lease renewals, required more Federal workers and less space 
and froze rental rates.
    The committee's actions have been bipartisan and together 
we have saved almost a billion taxpayer dollars on prospectus 
level leases in the last 2\1/2\ years. It has been difficult 
and somewhat painful to achieve these savings for three basic 
reasons; one, most of the lease requests before the committee 
in 2010 were based on workforce projections and utilization 
standards that predated the financial crisis. In other words, 
they were not worth the paper they were written on. Two, many 
agencies don't want to adopt the President's new real estate 
standards. Three, GSA took far too long to provide the 
committee with updated information the committee needed to 
authorize them. As a result, it took time to negotiate 
reductions with agencies. Fortunately, the committee reached an 
agreement with all the agencies except one, the Nuclear 
Regulatory Commission. I am pleased a few agencies such as the 
Homeland Security Department and the Health and Human Services 
Department are proposing to cut their real estate footprint and 
adopt stricter utilization rates on their own initiative.
    As I see it, we have a unique chance to save billions of 
dollars in Federal leasings and here is why: First, both the 
President and Congress want to put more people in less space 
and save taxpayer money. We all know that doesn't happen too 
often. When Democrats, Republicans and the President all agree 
and the American people want to see that. Republicans and 
Democrats actually agree on spending cuts. How often does that 
happen?
    Second, huge numbers of GSA leases are expiring in the next 
3 years, which creates an easy opportunity to shrink our 
footprint. In the National Capital region alone, there are 24 
million square feet of leases expiring and most of them have 
terrible utilization rates.
    Third, we are still in a buyers market, rental rates are 
low and good deals can be made for long-term leases. We don't 
want to miss this opportunity. We need GSA to more actively 
carry out the committee's and the President's goal to shrink 
our real estate footprint and save taxpayers money. I know most 
agencies don't want to give up office space. It can be hard for 
GSA to tell them no. The committee will continue telling 
agencies that they have to cut their office space, but GSA must 
also deliver that message when agencies come to them with new 
requests.
    The committee will do its job, and we need you to do yours. 
The committee needs prospectuses in a timely fashion. Even 
though millions of square feet of leases are expiring soon, GSA 
has submitted zero lease prospectuses. The committee needs 
information to authorize projects. For example, none of the 39 
Government-owned project requests the committee received with 
the budget include housing plans. How is the committee supposed 
to know if a project will result in a good or bad utilization 
rate if we don't have a housing plan? We can't do our job 
without this kind of information.
    Also, GSA's own building database fails to include the 
number of people that work in each building. How is GSA ever 
going to improve building utilization rates if it doesn't 
collect actual building utilization data? If agencies have 
multiple facilities in a location GSA needs to show the 
committee how a single leased request fits into that agency's 
plan for consolidating its footprint in that region. For 
example, the current prospectus to renew the NRC's expiring 
lease at its Maryland headquarters is very misleading. The 
housing plan clearly states the same number of people will 
occupy the building after the lease renewal, yet we know that 
is not true, because the NRC has just taken possession of an 
even larger leased building across the street.
    As a result, the NRC is going in exactly the opposite 
direction that the administration mandates. In this budget 
climate, smart agencies realize they have to choose between 
employee salaries and rent. So they are cutting off office 
space. However, NRC doesn't seem to have gotten that memo.
    I hope today we can hear from our witnesses on the steps 
that they are taking to improve their space utilization and 
save taxpayer dollars. I hope we can finally get answers to 
resolve the issues related to the NRC's space. I look forward 
to our witnesses' testimony.
    I now call on the ranking member of the subcommittee, Ms. 
Norton, for a brief opening statement.
    Ms. Norton. I thank you very much, Mr. Chairman. And first 
I want to strongly associate myself with your remarks on the 
Oklahoma disaster. We have not had occasion to have hearings 
this year or this Congress, but you remind the subcommittee 
that it is this subcommittee that has the primary FEMA 
jurisdiction, because we have the jurisdiction over natural 
disasters and those occur all the time, whereas Homeland 
Security has jurisdiction, of course, over terrorist disasters.
    So I am hoping, Mr. Chairman, that we can have a 
subcommittee hearing soon on Oklahoma and what FEMA is doing 
and what needs to be done, especially what needs to be done to 
prepare and prevent. It does seem like Oklahoma has moved ahead 
of perhaps some other jurisdictions because it is in tornado 
alley, as it is called. But I am reminded that we have had 
hearings in the last several years, not since you have been 
chairman, Mr. Chairman, but on predisaster mitigation where the 
Government saves $4 for every dollar invested, it is one of the 
best programs of the Federal Government and it has now expired. 
So I think Oklahoma will make us want to think again of 
predisaster mitigation.
    Mr. Chairman, I associate myself as well with your 
critiques of where GSA is now. For example, you cleaned up the 
backlog that had been bequeathed to you, we now have no 2014 
leases? And today, we are going to hear in a hearing that has 
been titled ``Freezing the Federal Real Estate Footprint,'' 
just how much freezing has been done, and hear from several 
agencies what the best practices are now for utilization rates, 
and whether they reflect the changes that both this committee 
and the administration have been pressing now for several 
years.
    In 2010, as far back as July 2010, the administration 
released a memo stating that many of the properties necessary 
for the Government's work are not being operated efficiently, 
and that they needed to reduce operating costs. Subsequent to 
that, in May 2012, another memorandum was issued essentially 
saying that the agency should not increase the size of their 
real estate inventory unless offset through consolidation, 
collocation or disposal of space. The procedures for complying 
with the administration memorandum were clarified later in 
March 2013 in a memorandum that directed OMB and the GSA to 
annually monitor the continuing implementation of this policy.
    As part of this process, each agency was to develop and 
submit a revised real property cost savings and innovation 
plan, and in future years, the annual agency evaluation to 
describe the agency's overall approach in managing its real 
estate usage and spending.
    I must say, Mr. Chairman, that the better approach is the 
one we began and has not been completed and that is to remove 
these properties from these agencies in the first place. They 
don't know anything about property management and we are 
creating a bureaucratic mechanism to ensure that they who are 
ignorant in this field do what they are supposed to do.
    This committee has, last Congress passed a bill and another 
committee on which I serve, Oversight and Government Reform, 
passed a bill, I think its bill is on its way--at least it is 
passed out of committee. I would hope that our committee would 
meet with that committee to see if between the two of us we can 
get a bill on the floor that would give this mission to, 
perhaps, OMB and GSA. I doubt that we are going to create a 
whole new agency the way we had initially thought, it wouldn't 
have been very large, but it doesn't look like that is in the 
cards. Meanwhile we are back to the kind of monitoring we have 
been doing all along and the kind of criticisms that we have 
had all along.
    GSA, of course, has a responsibility to guide these 
agencies into making good decisions on what the administration 
and the Congress wants done. With the advent--we have long had 
issues with how GSA guides these agencies, and I think part of 
the problem is the agencies don't pay any attention to GSA, 
they are all peer agencies so without some legislation that 
sets who has responsibility, we are probably still going to 
have that problem as well.
    We are seeing increasingly the advent of hoteling, 
alternative work schedules, and teleworking, so it is far more 
possible today for agencies to have even a smaller footprint 
given these technological advances that decrease the need for 
workers to be in the office all the time. Correspondingly, the 
committee has increasingly authorized less space than agencies 
have requested with a special focus on space requests that were 
received before the 2012 OMB memorandum. We have watched 
private industry in the wake of the great recession downsized 
and become more efficient in utilizing space as a result of 
economic pressure. And there is an expectation surely that 
Federal agencies would likewise meet the challenge of utilizing 
office space more efficiently.
    Today we are going to hear from a number of agencies 
besides GSA since they now are all still involved in this 
process, as they discuss how they have approached the 
administration and congressional mandate to alter their 
utilization rates and dispose of unneeded Federal space. The 
committee has made no secret of its concern about the Nuclear 
Regulatory Commission, in particular. And so we will be most 
interested in how a procurement that was authorized before the 
mandate can be reconciled with both a modified narrower mission 
for the agency, and a requirement that space utilization be 
improved. I looked forward to it the hearing and today's 
witnesses. I thank you, Mr. Chairman for calling this hearing.
    Mr. Barletta. Thank you, Ranking Member Norton. On our 
panel today, we have Dr. Dorothy Robyn, Commissioner, Public 
Buildings Service, General Services Administration; Mr. E.J. 
Holland, Jr., Assistant Secretary for Administration, 
Department of Health and Human Services; Mr. Jeffrey Orner, 
chief readiness support officer, Department of Homeland 
Security; and Mr. William Borchardt, executive director for 
operations, Nuclear Regulatory Commission.
    I ask unanimous consent that our witnesses' full statements 
be included in the record, without objection so ordered. Since 
your written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Dr. Robyn you may proceed.

  TESTIMONY OF DOROTHY ROBYN, COMMISSIONER, PUBLIC BUILDINGS 
 SERVICE, U.S. GENERAL SERVICES ADMINISTRATION; E.J. HOLLAND, 
JR., ASSISTANT SECRETARY FOR ADMINISTRATION, U.S. DEPARTMENT OF 
   HEALTH AND HUMAN SERVICES; JEFFERY ORNER, CHIEF READINESS 
 SUPPORT OFFICER AND AGENCY SENIOR REAL PROPERTY OFFICER, U.S. 
  DEPARTMENT OF HOMELAND SECURITY; AND R. WILLIAM BORCHARDT, 
  EXECUTIVE DIRECTOR FOR OPERATIONS, U.S. NUCLEAR REGULATORY 
                           COMMISSION

    Ms. Robyn. Thank you. Good morning, Chairman Barletta, 
Ranking Member Norton, members of the subcommittee. I 
appreciate being invited here today to talk about a topic near 
and dear to GSA's heart reducing the Federal Government's real 
estate footprint. I want to briefly address three topics: 
First, the administration's ``Freeze the Footprint'' 
initiative; second, GSA's action to help Federal agencies 
shrink their footprint; and third, GSA's role in disposing of 
unneeded properties and the critical need for a civilian BRAC 
process.
    Your opening statements clearly indicate that you are very 
familiar with the administration's 2012 ``Freeze the 
Footprint'' policy. And you will hear more about what my 
colleagues are doing to achieve that. So I am going to skip 
over the description of that, and just say that GSA has been 
given a central role in helping to monitor an agency's 
compliance with that, and to help them meet that. The 
information on how agencies are going to achieve it and how 
they are doing will, in time, be available on OMB's Web site, 
www.performance.gov, so it can be the aggregate numbers 
information on specific projects, so it will be directly 
trackable.
    Although GSA directly manages only about 375 million of the 
nearly 3 billion square feet of space under the Federal 
Government's control we do have the statutory authority to 
acquire, manage, utilize, and dispose of real property for most 
Federal agencies, thus, we are well positioned to drive change 
in this area. And in fact, we have been actively working to do 
so, and as one illustration in our prospectus level lease 
program in fiscal year 2013, we and our partner Federal 
agencies reduce our space needs from a proposed requirement of 
3.4 million square feet to about 3.1 million square feet, so a 
reduction of 10 percent in line with the numbers that you were 
citing, Mr. Chairman.
    Now, as you will hear from my colleagues, a major focus of 
our efforts is on transforming the physical design and the 
layout of the workplace in line with what is going on in the 
private sector. Many of today's Federal work spaces were 
designed for a time when the Government processed and stored 
large amounts of paper and completed daily tasks in very 
regimented and predictable ways. With today's increasingly 
mobile and flexible employees, agencies can get by with far 
less space, if that space is appropriately configured. Toward 
that end, we are working with agencies to implement innovative 
workplace strategies including rightsizing of individual 
spaces, hoteling, open floor plan design, and desk sharing. At 
the same time, we are supporting telework policy and training 
while providing the technology support to encourage mobility. 
Over the long term, these practices hold great promise for 
enabling the Federal Government to carry out its functions with 
much less office space per Federal employee. This is a very, 
very promising development.
    One obstacle, a major obstacle to us achieving this vision 
more quickly is the need for upfront funding to reconfigure 
space. We have doubled the number of people occupying GSA's 
headquarters at 1800 F, and in fact, we will triple it when we 
get to phase 2 of our renovation. But we have been able to do 
that because we had ARRA funding to renovate the space and to 
reconfigure it for an open office plan design.
    The President's 2014 budget includes $100 million 
specifically for us to work with other agencies to reconfigure 
and renovate GSA-owned space in support of that kind of 
improved utilization. We are also, of course, requesting 
funding for a number of individual specific projects that are 
large repair and alteration projects that are designed to 
renovate buildings so as to allow Federal agencies to 
consolidate their space needs and collocate with other Federal 
agencies and to move out of costly leases and into federally 
owned space. In addition to shrinking our footprint in leased 
space, we want to get agencies out of leased space all together 
and into federally owned space.
    Our role in freezing the Federal Government's footprint 
starts with the space we occupy ourselves. We will not only 
meet but exceed the ``Freeze the Footprint'' requirement by 
shrinking the amount of office and warehouse inventory that GSA 
itself occupies by 15 percent by 2015. And a lot of that is a 
result of the transformation of our headquarters and our 
ability to move several thousand GSA employees out of leased 
space and into our headquarters building.
    Finally, let me touch on property disposal which is key to 
any effort to shrink the Federal footprint. We are the primary 
real estate disposal agent for the Federal Government, we have 
long worked aggressively to identify and target unneeded assets 
for disposal. We just, last week, sold a 427-acre portion of 
the former Twin Cities ordinance plant in Arden Hills, 
Minnesota, on behalf of the Department of the Army. This 
negotiated sale was worth $28 million in direct benefits to the 
Federal Government. It eliminated 110 buildings and 1.7 million 
square feet of space from the Federal inventory which would 
allow the Army to avoid significant future operations and 
maintenance costs.
    Despite these and other success stories at property 
disposal, Federal agencies face major challenges in doing this. 
As GAO has repeatedly pointed out in reports that this 
committee has commissioned, these challenges include the high 
upfront costs to prepare property for disposal, various legal 
requirements which contribute to these costs, and perhaps most 
important, resistance from various stakeholder groups to be the 
disposal of individual properties.
    Mr. Chairman, we need a civilian BRAC process to help us 
address these challenges. The Department of Defense's BRAC 
process has helped DOD overcome these barriers resulting in 
enormous savings to DOD in the Federal Government. The first 
four rounds of BRAC 1988 to 1995 are producing $8 billion in 
annual recurring savings. The comparable figure for BRAC 2005 
in a couple of years will be $4 billion, that is a total of 
$100 billion in savings to date to the Department of Defense 
and every year DOD avoids $12 billion in annual costs, every 
year, as far as, you know, looking out to the future, they will 
avoid those costs every year. That is equivalent to what the 
Department would spend to buy 300 Apache attack helicopters, or 
4 Virginia class submarines.
    We need that tool on the civilian side as well. President 
Obama proposed a civilian BRAC mechanism in 2011, the 
administration reiterated its support for the proposal in the 
2014 budget. We want to work with Congress to develop this or a 
similar proposal that addresses these ongoing challenges. Thank 
you.
    Mr. Barletta. Thank you.
    And Representative Denham actually has a civilian property 
realignment bill and we would certainly appreciate your support 
as we move that bill forward. Thank you for your testimony. Mr. 
Holland you may proceed.
    Mr. Holland. Thank you, Chairman Barletta and Ranking 
Member Norton. My name is E.J. Holland, Jr., most people call 
me Ned, and I am the Assistant Secretary for Administration at 
the Department of Health and Human Services. Under the 
leadership of Secretary Kathleen Sebelius, HHS is committed to 
saving taxpayer dollars through effective management of our 
real property assets, improving our utilization through reduced 
space requirements, and pursuing alternative workplace 
strategies that increase our utilization rates and reduce our 
costs.
    HHS currently has over 4,100 real property assets, fewer 
than 1,000 of which are leased. The majority of our leased 
assets are acquired through the General Services 
Administration, and we work with GSA closely in acquiring 
leases to ensure that we deliver the most efficient and cost 
efficient space to meet our mission requirements.
    Most of our real property portfolio falls into three major 
categories: offices are about 36 percent, laboratories are 
about 33 percent and hospitals and clinics are about 15 
percent. Over 15 million gross square feet, or about 71 percent 
of our leased inventory is, in fact, office space.
    After President Obama issued his June 2010 memorandum 
``Disposing of Unneeded Real Estate,'' we accelerated our 
records to improve utilization of our existing assets. That 
resulted in identified savings and cost avoidance of over $23 
million between fiscal year 2010 and fiscal year 2012 through 
energy savings, disposals, consolidations and improved 
utilization. In the fall of 2010, we initiated working sessions 
among our operating divisions to develop strategies to improve 
office utilization. In addition, working with GSA we identified 
prospectus lease requirements anticipated through 2014 and 
projected their impacts on our real property portfolio.
    In May 2011, I issued an office utilization rate policy 
that reduced authorized usable square feet per person to an 
average of 170, including office and office support space, and 
pro rata share of any joint use space. This policy replaced the 
previous situation of over 215 usable square feet per person. 
Even before we formally issued our 170-square-foot utilization 
policy, we began looking at opportunities within existing 
projects to improve space utilization. One specific opportunity 
we explored in early fiscal year 2011 was the Parklawn 
replacement lease in Rockville, Maryland. The replacement lease 
originally was planned for 2,828 occupants in 772,553 usable 
square feet, for a calculated utilization rate of 273.
    After re-examination and consultation with the Secretary, 
we made the decision to consolidate three of our agencies along 
with the fourth that was already there into the Parklawn 
replacement lease. The current planned facility will house 
4,517 people in 823,924 usable square feet for a calculated 
utilization of 182. Over the term of that lease, the Department 
expects to save in excess of $215 million in rent costs 
associated with the consolidation of the four operating 
divisions.
    In April 2011, HHS agreed to work with GSA's Office of 
Client Solutions as part of their proposed Client Portfolio 
Planning initiative aimed at working with agencies to find 
long-term cost savings. We became one of the pilot agencies and 
the initial plan focused on reaching the President's goal of $3 
billion in savings by end of fiscal year 2012.
    GSA worked with our Department to optimize our real estate 
footprint. In addition to savings that we had already 
identified, GSA looked for targeted opportunities for potential 
additional savings in managing our portfolio. The original plan 
identified roughly eight opportunities by September of 2012, 
six of those, in fact, were implemented or complete.
    We are now working with GSA to develop a long-term plan 
that aligns our National Capital region real estate portfolio 
with leadership's long-range business goals. The plan will 
change the Department's approach to real estate from a 
transactional model that manages each separate asset 
individually to one that takes into account Departmentwide 
planning and goals. We will evaluate potential strategies for 
consolidation and lease replacement in order to increase 
overall efficiencies and utilization of space.
    We are committed to generating savings for the taxpayers 
through better utilization of our real property assets. We 
continue to work with our operating divisions and with GSA to 
identify opportunities for improved efficiencies in our leased 
portfolio, whether through consolidations, improved utilization 
costs, or innovative workplace solutions like the chairman and 
the ranking member mentioned.
    This effort requires Departmentwide cooperation and the 
accomplishments we achieved to date are the product of that 
cooperation. I appreciate the opportunity to appear before you 
this morning, Mr. Chairman, and I welcome your questions.
    Mr. Barletta. Thank you for your testimony, Mr. Holland.
    Mr. Orner, you may proceed.
    Mr. Orner. Thank you, Chairman Barletta, Ranking Member 
Norton, and members of the subcommittee for the opportunity to 
testify. I am DHS's chief readiness support officer and senior 
real property officer, a career civil servant with 31 years of 
experience in the Federal Government.
    DHS's real property portfolio includes 38,000 properties 
nationwide, half of our real property footprint is DHS-owned 
and remainder is leased either through GSA or directly from the 
private sector. Additionally half of our real property is 
operational mission space or personnel housing, and the 
remainder is predominantly office space and warehouses. The 
United States Coast Guard and Customs and Border Protection are 
responsible for 90 percent of DHS real property assets.
    In support of our frontline mission, DHS has made great 
strides in the management of our real property portfolio, and 
we are committed to the foundational principles of real estate 
property management. The right facility, at the right location, 
at the right cost to support our operational mission. To 
control costs and support our frontline operators and their 
mission, one key approach we have taken is to improve our use 
of space. We have improved our space utilization by partnering 
with GSA's workplace solutions group, and together with our GSA 
partners, we have conducted a detailed space use assessment 
followed by introduction of flexible workplace strategies.
    We introduce concepts of leading-edge workplace designs 
that resulted in higher space utilization, including supporting 
a mobile workforce strategy, hoteling and collaboration space. 
We conducted a pilot redesign in my own office using these 
concepts. The redesign cut the amount of office space by over 
50 percent leading to a cost avoidance of approximately $1 
million annually, and taking us to an average of 100 square 
feet per person. Despite that very aggressive space reduction, 
it is a very open space that is pleasant to work in.
    DHS is now managing numerous flexible workplace design 
projects in the National Capital region due to density and cost 
of general office space in this metropolitan area. And this 
approach will improve our Department's efforts in consolidating 
our headquarters' footprint.
    I would be remiss if I did not mention the DHS headquarters 
projects at St. Elizabeths for which we thank this committee 
for its support over the years. As evidenced by the President's 
fiscal year 2014 budget submission, the administration, DHS, 
and GSA remain committed to collocating the Department's 
operation coordination functions, executive leadership and 
policymaking functions into that secure campus. We continue to 
work with GSA to plan and execute the St. Elizabeths vision in 
order to achieve the overall goals and objectives at the lowest 
possible cost to the taxpayers.
    As such we are developing approaches to further reduce our 
real property costs by using flexible workplace strategies at 
the St. Elizabeths campus, and that should enable DHS to 
further reduce our remaining National Capital property 
portfolio.
    Last week, the DHS CFO and I submitted the DHS real 
property cost savings and innovation plan to OMB and GSA in 
response to the ``Freeze the Footprint'' policy. This plan was 
developed by a team comprised of representatives from DHS 
headquarters and each of our operating components. I am excited 
about our response, because it illustrates a real commitment to 
rightsizing office and warehouse space, it highlights our 
strategy for consolidation and reduction, and it defines our 
initial focus over the next 3 years.
    It also outlines longer term efficiency initiative expected 
to produce an even greater reduction over the next 6 to 7 
years, including reducing our average square foot of office 
space per person from 200 to below 150.
    To guide our components in implementing this policy, this 
week we signed a detailed new DHS workplace standard which 
provides our components with detailed how to on implementation 
on our ``Freeze the Footprint'' goals.
    In closing, DHS looks forward to achieving milestones of 
improved business processes and implementation of innovative 
concepts such as flexible workplace strategies. Our goal is it 
to support this Department's mission needs at the lowest 
achievable cost. I very much appreciate the opportunity to 
testify before you today and I look forward to answering your 
questions, thank you.
    Mr. Barletta. Thank you for your testimony, Mr. Orner.
    Mr. Borchardt, you may proceed.
    Mr. Borchardt. Chairman Barletta, Ranking Member Norton, 
members of the subcommittee good morning. And thank you for the 
opportunity to discuss the Nuclear Regulatory Commission's 
efforts to reduce office space consistent with the Federal 
``Freeze the Footprint'' policy.
    The Nuclear Regulatory Commission's mission is to license 
and regulate the Nation's civilian use of byproduct, source and 
special nuclear materials to ensure adequate protection of the 
public health and safety, promote the common defense and 
security, and protect the environment.
    The NRC was created in 1975 and initially occupied 11 
buildings throughout the Washington, DC, and Maryland area. The 
1979, Three Mile Island nuclear accident revealed numerous 
lessons for the industry and the NRC. One of the major findings 
was the need to centralize NRC's headquarter's staff to 
maintain our operational efficiency, regulatory effectiveness 
and emergency response capability.
    NRC's initial consolidation of its headquarters began in 
1986 with the General Services Administration's acquisition of 
One White Flint in Rockville, Maryland. At the time, GSA and 
NRC contracted for the construction and lease of the Two White 
Flint North buildings for purposes of housing the remainder of 
the NRC headquarters employees on one campus. The buildings 
were constructed with above and below ground connectors and 
since 9/11, share the common access and egress for protection.
    The passage of the Energy policy Act of 2005 stimulated a 
nuclear power resurgence with a considerable increase in the 
number of applications for U.S. nuclear power plants. This had 
an immediate and dramatic impact on our workload, and in 
response, our staff increased from approximately 3,000 to 4,000 
employees. With the growth of the NRC, the agency leased 
temporary space in four buildings in the Bethesda-Rockville 
area, and at the same time, pursued the construction of a third 
building at our headquarters location to maintain a 
consolidated workforce.
    In December of 2007, the President signed legislation 
appropriating funds for the NRC to obtain this additional 
office space in order to maintain NRC's efficiency and 
emergency response capability. GSA signed the lease for the 
Three White Flint North building in October of 2009.
    Over the last 2 or 3 years, moderating demand for 
electricity and the low price of natural gas has caused the 
Nation's nuclear plant operators to delay or defer a number of 
applications for new plants. In response, our need for 
additional staff abated, and in fact, declined slightly so that 
we now have approximately 3,800 employees.
    During the same time the Federal Government instituted new 
guidelines for Federal real estate. Both of these realities 
have had an impact on our space requirements. Soon after 
arriving at the NRC in the summer of 2012, Chairman Macfarlane 
became aware of the office space issues, including concerns 
from this subcommittee regarding the renewal lease prospectus 
for the Two White Flint building. She chartered a task force of 
senior staff to look closely at our office space and cost 
estimates. The task force re-baselined NRC space requirements 
and is now working to achieve a cost-effective footprint 
reduction.
    The NRC is committed to ensuring that the agency's 
footprint is appropriate to fulfill our safety mission and 
consistent with the administration's space utilization 
policies. Chairman Macfarlane and the GSA Administrator have 
met and created teams that have worked jointly over the last 5 
months to present an updated recommendation to this committee. 
NRC and GSA have been working intensively to develop a solution 
designed to address the issues identified by the subcommittee.
    The NRC/GSA housing analysis concludes that even with a 
reduced utilization rate the NRC needs approximately 2\1/2\ 
buildings to perform its functions. The optimal approach for 
meeting this need is to retain Two White Flint North in its 
entirety, and for the NRC to relinquish several floors in the 
new Three White Flint facility. NRC's preferred path forward is 
consistent with the ``Freeze the Footprint'' policy and 
achieves office space targets set forth in OMB guidelines. The 
NRC/GSA plan is consistent with the NRC's goals to consolidate 
our headquarters staff into one campus, to facilitate our 
mission, and to provide effective working conditions for the 
agency's professional engineering and scientific workforce.
    In closing, I want to reiterate NRC's commitment to being 
responsive to the ``Freeze the Footprint'' initiative as well 
as our changing space needs and the subcommittee's interest in 
rightsizing in a cost-effective and timely manner. We will 
continue to work with GSA, OMB and the Congress to accomplish 
these objectives and to address these issues fully and 
transparently. We look forward to working with this committee 
on this important matter. I would be happy to answer any 
questions, thank you.
    Mr. Barletta. Thank you for your testimony.
    I think it would be helpful for the committee to hear a 
little more about the current situation with the Nuclear 
Regulatory Commission and how we got there. For a variety of 
reasons in 2006, the NRC believed its personnel were going to 
increase. The NRC went to GSA, and with OMB approval, the GSA 
submitted a prospectus to this committee in 2007. The 
prospectus requested authority to lease an additional 120,000 
square feet of office space at a maximum cost of $38 million, 
or $32 per foot for 10 years. The committee authorized the 
prospectus shortly thereafter. However, rather than abide by 
the committee authorization, the NRC leased a couple satellite 
locations and a custom building three times as large, and 10 
times as expensive as the committee authorized. The building 
was constructed across the street from NRC's headquarters, and 
was finished just last year.
    Although the building is mostly vacant, the NRC has been 
paying rent since December. On the left-hand side of the first 
slide, you can see the committee authorized 120,000 square feet 
of space for $38 million. On the right, you can see what the 
NRC spent, 443,000 square feet for $400 million. On the second 
slide, you can see how the NRC's office space grew from 785,000 
square feet in 2007, to over 1.2 million square feet of space 
in 2013. That is a 53-percent increase.
    Over the same time period, the NRC's staff level actually 
dropped from 3,340 to 3,250 people. As a result, the NRC's 
utilization rate went from 195 usable square feet per person in 
2007 to 322 square feet today. As a point of reference HHS's 
policy is to house people at 170 square feet per person and the 
National Labor Relations Board which consists almost entirely 
of attorneys in private offices is at 200 feet per person.
    The next slide shows the actual number of workstations in 
the NRC headquarters buildings today. On the right is the 
actual number of people, including contractors that work in 
those buildings. The American taxpayer is paying rent to house 
1,800 empty workstations. By almost any measure, the NRC has 
far more office space than it needs and millions of dollars of 
taxpayer money are being wasted.
    In addition, about 1,600 of those workstations are located 
in a building where the lease expires at the end of the year. 
Yet despite the empty space and clear directives from the 
President, the NRC wants the committee to authorize a sole 
source renewal of this lease at a cost of $177 million. The 
question before the committee today is how much office space, 
if any, should the committee authorize for the NRC?
    I will now begin our first round of questions and we are 
going to limit each Member to 5 minutes.
    Mr. Borchardt, how much space specifically--before I go 
there, as you have heard, agencies across the Government are 
improving their utilization rates and cutting office space as 
per the President's request, and as the request of both 
Democrats and Republicans on this committee. So with that being 
said first, how much space specifically does NRC need?
    Mr. Borchardt. Mr. Chairman, we agree what the current 
satellite offices that we have leased.
    Mr. Barletta. Can you put your microphone on?
    Mr. Borchardt. It is on.
    Mr. Barletta. Maybe if you could pull the mic up closer, it 
is hard to hear.
    Mr. Borchardt. As you mentioned, in 2005 we had the Energy 
Policy Act that generated a renewed interest in nuclear power 
in this country. We had applications projected for--over 30 
applications for new nuclear power plants as well as numerous 
facilities in the rest of the nuclear fuel cycle. That caused 
our projected staffing to increase agencywide from 
approximately 3,000 to almost 4,000 people. As a result of the 
economy and as a result of the price of natural gas, those 
applications have declined significantly. As we staffed up in 
the 2005 to 2008 time period, we found it necessary to lease 
space and satellite offices that are within 3 miles of the 
current NRC complex.
    Right now, we have already vacated one of those facilities, 
we have just transferred the staff from a second facility into 
the new office space. But we agree that the NRC does not need, 
based upon our current best estimate of the workload and the 
staffing requirements, all of the office space for all three of 
the buildings in the White Flint campus. Our suggestion, and I 
believe our best plan is for us to retain One White Flint and 
Two White Flint in its entirety and then give up approximately 
half----
    Mr. Barletta. What is your target utilization rate?
    Mr. Borchardt. The target for the plan that we had would be 
128 square feet per employee after we give up about half of the 
new building.
    Mr. Barletta. Your utilization rate.
    Mr. Borchardt. Yeah, I think that is--that is after we give 
it up, after we give up and terminate the lease on all the 
satellite offices, it would be 128.
    Mr. Barletta. If you keep all three buildings, it will be 
275.
    Mr. Borchardt. I can't verify that one way or the other, 
but it wouldn't be--we don't see a basis or need to keep all 
three.
    Mr. Barletta. We can, we can. It will be 275. In 2007, it 
was 195, and 2012 it was 231, and now it is at 322. We think 
the utilization rate should be closer to 200. So what is your 
target utilization rate? You are at 322 now, if you keep three 
buildings, it's 275.
    Mr. Borchardt. If we--I think--I can't dispute the number 
that you have, but we are not proposing that we keep all three 
buildings in its entirety. We think Two White Flint, the 
facility that is up for lease renewal in December of this 
year----
    Mr. Barletta. Yeah. The all in utilization rate, what is 
the all in utilization rate?
    Mr. Borchardt. 215.
    Mr. Barletta. You state that NRC's preferred path forward 
is consistent with the ``Freeze the Footprint'' policy and 
achieves targets for space utilization set forth in OMB 
guidelines. What exactly is the new plan and has it been 
approved by OMB?
    Mr. Borchardt. It is under review by OMB now. There are 
several scenarios that are being developed. Our preferred 
approach because of the special use facilities in the Two White 
Flint campus or Two White Flint building because it has certain 
rooms for the advisory committee, we have the safeguards which 
is mandated by law, as well as the hearing board, as well as 
some other facilities in that room, would need to retain all of 
One White Flint, all of Two White Flint and to give up, as I 
said, approximately half of the new building, the Three White 
Flint preferably to another Federal agency.
    Mr. Barletta. Who would pay more to move in there?
    Mr. Borchardt. I don't know what the arrangements would be. 
I would have to defer to GSA on how the financial arrangements 
would----
    Mr. Barletta. We have been asking NRC repeated for this 
plan, why haven't we receive it? And when will we receive it?
    Mr. Borchardt. I believe we are working through GSA and 
OMB. And I think we have--we are in that process. I would ask 
GSA if they had anything to add.
    Mr. Barletta. And do you expect that this committee will 
approve its prospective while it's seeking a new plan?
    Mr. Borchardt. I can't answer that.
    Mr. Barletta. Mr. Borchardt, the NRC has spent a 
significant amount of funds customizing Three White Flint for 
its needs, more than $90 million in tenant improvements. Now 
the taxpayers are locked into paying for that space for at 
least 15 years, costing $350 million total over the term of the 
lease. Why would the NRC just walk away from that and can you 
explain how your proposal will save the taxpayers money?
    Mr. Borchardt. Well, Mr. Chairman, I think we need to 
remember that at the time the decision was made to build Three 
White Flint and then to make the decisions regarding its build-
out and how it was to be constructed, at that time in the 2007, 
2008 timeframe, we were in a period where as I had mentioned in 
my oral testimony there was a great deal of enthusiasm for new 
construction of plants and other facilities in the nuclear fuel 
cycle. We projected NRC growth to be--go in excess of 4,000 
staff members total. That reality has, in fact, changed. So 
what was a good decision, I believe, in 2008 is no longer the 
decision we would make today. Given that reality, we think 
Three White Flint is a high-quality building and would be a 
desirable location for many other Federal agencies. I think the 
cost associated with moving the special facilities out of Two 
White Flint would--do not appear to me, anyway, to make good 
financial sense, so that is why we prefer to keep Two White 
Flint in its current situation and to give up part of Three 
White Flint to another agency.
    Mr. Barletta. Mr. Borchardt, I understand what you are 
saying, there is a lot of things that we prefer. And you know, 
Democrats and Republicans many times argue over cutting food 
programs versus education and make all those tough decisions 
all the time, and there are legitimate arguments on both sides. 
I find it very hard to accept the fact that we could try to 
convince the American people that we actually need more space 
for less people because we prefer that option.
    At the same time there are so many needy programs that we 
are trying to save money to, and to have a Federal agency, it 
is very hard. This is like a softball for us, really. It is 
very hard to have an agency try to convince us that we prefer 
this, this will be better for us. At the same time you have 
less people today than you did in 2007, disregarded the 
committee's, what the subcommittee authorized in 2007, went 
ahead instead of $38 million, we are talking about $440 
million. I am just going to say, I really think you have a real 
tough argument here today, and----
    Mr. Borchardt. If I can, Mr. Chairman, I would say that the 
headquarters staff is approximately 250 people more today than 
it was in 2007.
    Mr. Barletta. But there are actually less employees today 
than you had in 2007.
    Mr. Borchardt. No, sir.
    Mr. Barletta. I believe that you do.
    Mr. Borchardt. I think in 2007, headquarters staff I 
believe we had 2,652. Today we have somewhere around--well at 
the end of 2012 we have 2,913.
    Mr. Barletta. Yeah.
    Mr. Borchardt. I think the other point I would like to make 
is that, as I know you are familiar, we were in four temporary 
locations in the headquarters offices. As I mentioned, we have 
already terminated one of those leases. We are in the process, 
in fact, we have moved an entire office of approximately 200 
people from a second building into the Three White Flint 
building, and we will be terminating that lease. It is our 
desire to be able to terminate the other two satellite offices 
buildings completely when we can have the decisions regarding 
the lease on Two White Flint and the final configuration of 
Three White Flint.
    Mr. Barletta. Thank you. We will come back for another 
round of questions. I now recognize the ranking member, Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    You know, Dr. Robyn, one of the problems I see here is this 
agency seems to be doing its own housing plan. You know, if you 
let an agency do what they have done, first of all, they 
completely ignore what has been authorized by this committee, 
so they simply go to their appropriators, to somebody else, and 
they end up in one of the highest lease, highest rents, highest 
cost parts of the region, where it is GSA's job to keep that 
from happening with all this discussion. And all of it comes 
from NRC. You know, we have absolutely no confidence in NRC on 
this issue, in part because that is not their business. It is 
your business. So I have to ask you, is there a long-term 
housing plan that GSA is working on for NRC?
    Ms. Robyn. First of all, let me say I would agree with the 
first part of your statement that this is a situation that 
occurred because NRC went to the appropriators.
    Ms. Norton. Completely berserk, you know. They are playing 
with the taxpayers' money.
    Ms. Robyn. We ran the procurement because it was--they did 
get----
    Ms. Norton. Did they at least consult with you before they 
go out and have another brand new space?
    Ms. Robyn. Well, no, once the appropriation language was 
law, I am told our folks consulted with our lawyers. They said 
it is----
    Ms. Norton. But they didn't consult with you ahead of time?
    Ms. Robyn. I don't believe so, no. I think they were not 
happy with, I think--I have talked to our staff about the 
history of this. I wasn't there at the time. I think they----
    Ms. Norton. So they are paying above the rental cap now?
    Ms. Robyn. Well, yes. I think we did a procurement. The 
procurement that we did, we proposed, as the chairman 
described, our prospectus, which this committee approved very 
quickly, 120,000 square feet, and the delineated area was, I 
believe, within 2 miles of the NRC's campus. Going out that far 
means you get a fair amount of competition and you can drive 
down the rates, and in fact we typically have a maximum, we 
have a rate cap for the----
    Ms. Norton. But they are above the rate cap?
    Ms. Robyn. Yes, because the language allowed that to do 
that. So when we did the procurement, it was a very, very 
narrowly defined procurement, and it resulted in a building 
that is right at White Flint.
    Ms. Norton. How often does an agency rent above the rent 
cap?
    Ms. Robyn. In any GSA lease that does not happen.
    Ms. Norton. That is right, and this was not a GSA. But it 
is up to GSA to do something about it.
    Ms. Robyn. But that said, so the history, I don't like the 
history. This is----
    Ms. Norton. All right, let's go forward.
    Ms. Robyn. But going forward, we are----
    Ms. Norton. Go forward. Because, you know, they give me all 
that happened before as well. You know, we thought we were 
going to be big, we turned out to be small, and we still want 
to renew a lease to be almost as big. And they say, they who 
are not real estate people, they say, oh, we have got a plan. 
What do I care about their plan? They are nuclear people. You 
come to me and talk about nuclear stuff, I will listen to you.
    I am going to talk to Dr. Robyn. They have got a plan. And 
their plan is they want to renew a lease that is expiring, 
which would seem to give us an opportunity to correct this 
mess. And these non-real estate agents tell us what they want 
to do is to move another Federal agency into this expensive 
property, and they don't tell us who will pay for the delta 
that would exist on the rental cap, which you would never have 
allowed if this had gone through GSA in the ordinary course or 
if this committee had been given the opportunity that the law 
requires it be given.
    So you tell me about their plan. Is their plan feasible?
    Ms. Robyn. And let me say, they will pay the delta if we--
--
    Ms. Norton. Do you understand you would pay the delta?
    Ms. Robyn. Yes. No, they will do it. No other agency.
    Ms. Norton. Do you understand that your plan would still 
leave you paying for the delta if a new agency moved in there 
because that new agency could only move in there compliant with 
the rental cap?
    Mr. Borchardt. That is consistent with the discussions we 
have had with GSA.
    Ms. Norton. So you are prepared to take that on? That 
extra, that extra amount in your own budget?
    Mr. Borchardt. I am not sure of the details myself.
    Ms. Norton. Well, you need to be sure of them before you 
come in with a plan to let this lease expire. And you say you 
have no authority to rent out part of the building, to rent out 
the other part of the building. So you see why I have to just 
scrap that and pay no attention to it and ask Dr. Robyn, we 
need a housing plan.
    Ms. Robyn. Yeah. And we are working closely with NRC and 
OMB to evaluate different options.
    Ms. Norton. So do you support renewing the lease at this 
time on the second building, Two White Flint?
    Ms. Robyn. Leaving aside how we got to this situation----
    Ms. Norton. Please leave that aside. I have asked you a 
direct question.
    Ms. Robyn. In an ideal world----
    Ms. Norton. They want to let a lease expire. Do you support 
letting that lease expire or not?
    Ms. Robyn. They want to hang on to Two White Flint Mall. 
The NRC campus.
    Ms. Norton. I mean, they want to--sorry--renew the lease.
    Ms. Robyn. Yes, yes.
    Ms. Norton. They want to renew the lease. Do you support 
renewing the lease on Two White Flint?
    Ms. Robyn. I have to explain a little bit. It is not a 
simple answer.
    Ms. Norton. OK.
    Ms. Robyn. We own White Flint Mall, we own One White Flint 
Mall. We lease Two White Flint Mall. We had a purchase option. 
We should own that building. We should not get in a situation 
where we are leasing a building that is joined at the hip with 
another Federal office building like this one is.
    Ms. Norton. Did you ask the administration for authority to 
buy the building?
    Ms. Robyn. I think this is our----
    Ms. Norton. Hasn't the owner said he is not interested in 
selling the building?
    All right. So let's move on to what you are really going to 
do.
    Ms. Robyn. I think we had a purchase option and I think 
when the time came to exercise it, we did not have the money, 
and I don't know whether that was us or NRC, we traded that----
    Ms. Norton. Just a moment. Dr. Robyn, I am told GSA sold 
the purchase option.
    Ms. Robyn. Yes.
    Ms. Norton. So why are you talking about the purchase 
option?
    Ms. Robyn. Well, I was giving you the history of why I 
think--we traded it for buffer land from the lessor, but I 
point to that----
    Ms. Norton. All right. So why are you talking about owning 
the building?
    Ms. Robyn. Because I still think that is the ideal outcome.
    Ms. Norton. You know, this is----
    Ms. Robyn. We are the Federal Government, we should have 
leverage with lessors, and one source of leverage is entirely 
vacating the building.
    Ms. Norton. You know what? You are going around in circles. 
Dr. Robyn, we have a letter, the building owner says he is not 
interested in selling the building. Now, you are telling me, 
and you see why we have no confidence in NRC because they are 
in a business that is not their own, but we are supposed to 
have some confidence in you. But you tell us that we should own 
that building, knowing full well----
    Ms. Robyn. Ideally.
    Ms. Norton [continuing]. That the owner says he is not 
going to sell that building. What am I supposed to do with that 
statement?
    Ms. Robyn. This can be seen as a negotiation, and this is 
not an unusual situation. I think we are prepared to----
    Ms. Norton. So you therefore support, you support the 
renewal of the lease?
    Ms. Robyn. That would be the ideal circumstance----
    Ms. Norton. What is there about that building that is so 
important that it has to be renewed for another 15 years?
    Ms. Robyn. Well, and again, not at any price do I think we 
should renew that lease. Not at any price. It comes down to 
cost. It is joined at the hip with One White Flint Mall as a 
result of various security measures, and Dr. Borchardt can talk 
about that more, better than I can, but it is--there are 
tunnels and security linkages and access interconnections that 
make it----
    Ms. Norton. Mr. Chairman, I am going to go on to one more 
question. Once again GSA, which should be holding the cards, is 
over a barrel. Obvious this owner knows he has got them over a 
barrel, NRC has them over a barrel. They don't have a plan. 
They have no plan. They can't come in here today and say that 
they are for renewing the lease because they are in 
negotiations with the Lerner Group, who know how to bargain. 
And therefore this committee is faced with what should be put 
on an indefinite hold, and that is the notion that somehow 
pending your negotiations we should allow a renewal of a lease 
for 15 years that should not have occurred in the first place.
    I have a final question here to GSA. In this city GSA is 
building and it is about to open the Coast Guard building. That 
leaves you with an empty Coast Guard building, and you are 
going to owe on that building empty. We calculated it is 
something like a $60 million loss to the taxpayer with respect 
to the remaining lease when the Coast Guard moves out and they 
may move out as early as August. What have you done to mitigate 
that liability? The chairman showed you that we are paying on 
an empty building or much of an empty building in White Flint. 
In August are we going to be paying for an empty building that 
the Coast Guard, at Buzzard Point, that the Coast Guard shall 
have moved out of?
    Ms. Robyn. Are you talking about Transpoint or----
    Ms. Norton. Buzzard Point Coast Guard building.
    Ms. Robyn [continuing]. Jemal Riverside? We are planning to 
exercise our termination rights under the lease agreement on 
the Transpoint Building for a variety of reasons.
    Ms. Norton. I am asking you about the $60 million. How are 
you mitigating the $60 million cost to the taxpayers? In other 
words, what you are telling this committee, we are going to 
leave it empty?
    Ms. Robyn. No. Well, I am not sure what building, whether 
we are talking about----
    Ms. Norton. The Transpoint Building.
    Ms. Robyn. Can I ask Mr. Orner to clarify which building we 
are----
    Mr. Orner. The Coast Guard Headquarters currently occupies 
both the Transpoint Building and the Jemal Building. Relative 
to the Transpoint Building, I received a letter from GSA 
several months ago that told DHS and the Coast Guard that they 
would be exercising the termination clause on that lease 
effective at the end of the--effective when the Coast Guard 
moves out. The Coast Guard begins to move out in August, and it 
takes place over a 4-month period, and they outlined in the 
letter the reasons for terminating the lease, which had to do 
with, first of all, that the building is on a floodplain, and 
secondly that there are costs associated with that lease that 
are unique to that lease.
    Ms. Norton. What are you doing to mitigate the $60 million 
cost to the taxpayers you will be left with if that lease is 
terminated?
    Ms. Robyn. Well, I think we wouldn't, if we are talking 
about the Transpoint Building----
    Ms. Norton. We are talking about the Transpoint Building.
    Ms. Robyn. Yeah. I think terminating the lease is a way of 
avoiding that $60 million. That is why we will be terminating 
the lease, is my understanding. I mean, we wouldn't terminate 
it. We would, alternatively, if----
    Ms. Norton. Dr. Robyn, there will be 2 years where you are 
responsible for paying on that building. You have got or DHS 
has in holdover status now a number of agencies where you are 
paying for that reason, because the DHS building has not gone 
up as quickly as we had thought. Have you thought of ways to 
keep from paying on an empty building for 2 years?
    Ms. Robyn. The letter to Mr. Orner from the regional 
Commissioner, GSA Regional Commissioner Bill Dowd, says GSA's 
intent is to exercise the termination option this spring, this 
is referring to Transpoint, which will produce upwards in $60 
million in total rent savings. So I believe----
    Ms. Norton. Oh, my goodness, Mr. Chairman, could I ask 
this? Within 30 days----
    Ms. Robyn. Yes.
    Ms. Norton [continuing]. Would you write to the chairman 
how you will avoid paying rent for an empty building, 2 years' 
rent for an empty building?
    Ms. Robyn. I will.
    Ms. Norton. In other words, in the law we call it 
mitigating the damages. You have mitigated it somewhat, but you 
still would be paying for an empty building. We would like to 
know what action you have taken or propose to take so that the 
taxpayers will not be left with liability and whether or not, 
for example, some of the DHS agencies and holdover leases 
temporarily could occupy that space. I don't even mean to 
suggest to you what must be a hundred options other than simply 
eating the amount that you would be left with.
    Ms. Robyn. Let me just say one more time, and I will 
confirm this, but when we terminate a lease, that we have a 
right in certain leases, we have a purchase option in some of 
our leases, we have termination rights. When we exercise the 
termination right, that gets us out----
    Ms. Norton. We aren't questioning your right. We aren't 
questioning. We are asking what you are going to do for 2 years 
paying rent on an empty building, that is all. Is there nothing 
that can be done during those 2 years to mitigate the remaining 
liability?
    Ms. Robyn. OK, I think we----
    Ms. Norton. In 30 days.
    Ms. Robyn. I think we have a difference of actual----
    Ms. Norton. Well, then, in 30 days in writing----
    Ms. Robyn. I will clarify.
    Ms. Norton [continuing]. Would you let the committee know--
here is the chairman, so you know who I am talking about--in a 
letter what you intend to do to mitigate whatever liability you 
claim you will be left with, unless you are telling me there 
will be no liability whatsoever.
    Mr. Barletta. Thank you, Ranking Member Norton. We will 
certainly get back to that. We are going to go to the gentleman 
from Pennsylvania, Mr. Perry. Just to answer later, if we are 
not backfilling that building, why should we believe that we 
are going to somehow find Federal employees at a higher rate 
for the NRC? We will get back to that. I will recognize the 
gentleman from Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    And thank you folks for coming in. It is good seeing you. 
My first question, will be directed to Mr. Borchardt. Is it 
doctor or mister?
    Mr. Borchardt. Mister.
    Mr. Perry. Mister. OK.
    The information I have shows since 2007 a decrease in 
staffing of about 3 percent. Meanwhile, during the 2007 to 
2013, the same commensurate period of time, an increase in 
square footage. Now, the numbers vary somewhat from other 
information I have. If I go back to 2007, I have got 2,652 
employees on, information that I think was provided by your 
agency, and it increases in fiscal year 2010 to 3,035, and it 
is down to 2,913 in 2012.
    With that, again, according to your testimony, so if I am 
wrong, please correct me, but the NRC says its preferred 
solution is that all of Two White Flint be leased and the NRC 
relinquish space in Three White Flint to another Federal 
tenant. But what you propose is that the taxpayers are paying 
for all three buildings as opposed to two or two-and-a-half 
buildings. Is NRC's analysis based on the cost to the taxpayer 
or the cost to the NRC? And do you have a Federal tenant who 
has committed to backfilling the space?
    Mr. Borchardt. Well, we are working with GSA regarding the 
final configuration. The decision has not yet been finalized as 
to what the headquarters campus of the NRC will be, how it will 
be configured. Our preferred approach is the one I described, 
where we give up half of the new Three White Flint building, 
but that is still a decision to be made.
    Mr. Perry. And the basis, again, is it for the cost 
regarding NRC or cost to taxpayers? What is the basis for the 
decision?
    Mr. Borchardt. I would have to get back to you on that. I 
am not sure.
    Mr. Perry. All right. Dr. Robyn, do you have any input at 
this point based on those comments?
    Ms. Robyn. We are evaluating the cost and the benefits of a 
couple of different options. As I said earlier, in an ideal 
world we would own Two White Flint Mall and the NRC would fully 
occupy One and Two and a portion of Three. But that may not be 
the most cost-effective. It may be, in the end, more cost-
effective to, given that the lessor does have us over a barrel, 
it may be more effective to simply get out of Two White Flint 
Mall and occupy--I agree that NRC needs two-plus buildings. How 
you configure that, whether it is One and Two plus part of 
Three or One and Three and some satellite spaces, we are 
running the numbers on that.
    Mr. Perry. And, again, would you consider the cost to 
taxpayers or cost to the NRC? What is the higher standard?
    Ms. Robyn. Well, I haven't really drawn that distinction. 
Costs to Federal agencies are costs to taxpayers. In this case, 
if we backfill a portion of Three White Flint Mall, I said 
earlier that the NRC would pick up the incremental cost of that 
higher priced space to Federal agencies. So in that sense it 
would be a cost to NRC ultimately.
    In the case of NRC, I should say, they are funded largely 
by industry user fees. So, yes. OK, I am sorry, that is what 
you were getting at. Yes. One can distinguish agencies like 
Securities and Exchange Commission, Nuclear Regulatory 
Commission that are funded by user charges to industry. It is 
worth drawing that distinction.
    Mr. Perry. I would say it is. And, you know, as a person 
that pays for base load out at Three Mile Island, because I am 
part of the PJM, this is important to me.
    Mr. Borchardt, much of the budget is, as is already stated, 
from fees on the nuclear industry. Do you know what will be the 
total cost of the NRC's preferred solution to the industry and 
then to me as a ratepayer, including amounts you have already 
sunk into Three White Flint.
    Mr. Borchardt. Well, as you alluded to, 90 percent of the 
NRC budget is paid for by the licensees that we regulate, so 
our budget is approximately a billion dollars. Ninety percent 
of that is fee reimbursed.
    Mr. Perry. OK. In the time remaining, you state that if the 
lease prospectus is not renewed and the NRC were to vacate Two 
White Flint, the agency would have insufficient space to house 
its current employees and conduct effectively its nuclear 
safety mission. Have you, in that regard, run analysis on the 
following solutions: Fully utilizing Three White Flint and the 
satellite buildings and/or vacating half of Two White Flint.
    Mr. Borchardt. Yes, we are in the process of doing that 
analysis. As I recall, the estimate is about $4 million to $7 
million a year in order to lease the space necessary to hold 
the hearings, the special use buildings in the Two White Flint 
facility. So this has to do with the hearings and the Advisory 
Committee to the Commission.
    Mr. Perry. Thank you, Mr. Chairman. I yield back.
    Mr. Barletta. Thank you, Mr. Perry.
    The Chair now recognizes the gentlewoman from Maryland, Ms. 
Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman. I apologize 
that I haven't been here for the entire hearing. I appreciate 
your continued oversight and the ranking member's oversight of 
the GSA leasing process, let's just say.
    I have long had questions about GSA's role and who you work 
for. And in some of my work on this committee, it has come to 
my attention that it is often unclear who is in the driver's 
seat when it comes to making decisions on behalf of the 
taxpayers and what might be most cost-effective for taxpayers 
when it comes to GSA and its relationship to the client 
agencies.
    And so I just want to ask you, Dr. Robyn, who is in the 
driver's seat when making these decisions? Who gets to say that 
is the deal?
    Ms. Robyn. We have a difficult role because we were created 
and we still have dual functions. We are a cop, on the one 
hand, we have a regulatory control function of telling agencies 
to dispose of that property, shrink your footprint. At the same 
time, we have a service-provision function, and we try to 
balance those two. We were created that way. Some countries 
have severed those two functions because it is hard to do both. 
I think they belong together, but it is a balancing act. And 
over time GSA has at some periods in its history been more in 
what one would call an order-taker role and at other times been 
in more of the cop role. I like to think we are not an order 
taker, but we do need to work cooperatively with agencies.
    Ms. Edwards. So let me just ask this, so I want to get 
right down to it: When you look at the National Capital region, 
how many counties, jurisdictions does that include?
    Ms. Robyn. Oh. Well, I normally have a little map. It is--
--
    Ms. Edwards. Give me a number.
    Ms. Robyn. It is the District and Prince George's County 
and Fairfax and Arlington. Six, seven, something.
    Ms. Edwards. Montgomery. Right.
    Ms. Robyn. Montgomery County, yes.
    Ms. Edwards. And so if we are to take a look at the 
consolidation that needs to happen with HHS which has, I 
believe, about 97 offices throughout the National Capital 
region, how many of those offices are located in one of those 
handful of jurisdictions that you just pointed out? How many of 
those are located in Prince George's County?
    Ms. Robyn. I don't know the number.
    Ms. Edwards. Does anybody from HHS know?
    Mr. Holland. I don't have that number, Congresswoman, but 
we certainly can get it and get back to you.
    Ms. Edwards. Definitely want to get that.
    So of the 97 offices throughout the National Capital 
region, the number that I want to know, when you look at the 
spread throughout the region and you look at consolidation, how 
many of those are in one county, in Prince George's County? And 
while you are at it, in responding, I hope in writing to that 
question, I want you also to give us the average distance of 
the offices that you are currently operating and what you 
envision as consolidation from a Metro station, from a 
transportation hub. And also I would like to know the average 
lease rate per square foot paid in each one of those 
jurisdictions for the offices that HHS operates.
    [Please see pages 58-59 for responses from the Department 
of Health and Human Services to Hon. Donna F. Edwards' 
questions.]
    Ms. Edwards. Let me just ask about DHS. DHS has about 50 
locations throughout the National Capital region. How many of 
those are planned, are you trying to draw down to sort of one 
vision, one DHS with, I don't know, how many, 10 maybe other 
offices?
    Mr. Orner. DHS headquarters and our component headquarters, 
as you say, occupy over 50 locations in the NCR. If you count 
our local field operations, it is another 50 locations. Our 
goal is to get down to roughly 15 anchor locations in the 
National Capital region. St. Elizabeths would be one of those.
    Ms. Edwards. And of the 50 locations currently in the 
National Capital region, do you know how many jurisdictions are 
in the National Capital region?
    Mr. Orner. I don't know off the top of my head.
    Ms. Edwards. OK. So, again, of those 50 locations in the 
National Capital region, and as you envision the 15 locations 
that you want to drill down to, with the anchor being the St. 
Elizabeths Hospital, how many of those are located in Prince 
George's County?
    Mr. Orner. I will get back to you with a written answer on 
that.
    Ms. Edwards. And the same thing, how many, where they are 
located, the proximity to a Metro.
    [Please see pages 64-66 for responses from the Department 
of Homeland Security to Hon. Donna F. Edwards' questions.]
    Ms. Edwards. What I am trying to get at is whether the 
National Capital region is treated fairly in all of its 
complexity in every single area of the county because when it 
comes to consolidation, when you start to look at what is the 
benefit of the bargain for the taxpayer, what is the cost? What 
is it going to cost us ultimately? Not what the cost is to an 
individual agency juggling a budget. What is the overall cost 
to the taxpayer and how are we saving the taxpayer money? And 
if there is a jurisdiction that we are jumping over top of to 
get someplace else at an agency directive, then I would say to 
you that GSA is not in the driver's seat when it comes to 
giving the benefit of the bargain to the entire capital region 
and making sure that the taxpayer comes in first.
    And with that I would yield.
    Ms. Robyn. Can I respond to that? I think that we rely on 
competition to get taxpayers the best deal. We spend an 
enormous amount of effort identifying the appropriate 
delineated area, and sometimes we have differences with 
individual members on this committee. But ultimately we use a 
competitive process. And we are not fundamentally different 
from a corporation when siting a large new facility, we are not 
fundamentally different from a corporation that is thinking----
    Ms. Edwards. With all due respect, there have been too many 
studies for you, Dr. Robyn, to sit in front of this committee 
and tell us that it is just kind of a transparent corporate 
decision looking at a delineated area where things are 
considered fairly. There has been way too much documentation. I 
don't want to go into it again. But the reality is that there 
is only one jurisdiction in the National Capital region that is 
treated differently, and that is Prince George's County in 
Maryland.
    And if the members of this committee want to get a better 
bargain for taxpayers, our job has to be to make certain that 
the GSA is treating the entire region with the fairness that 
taxpayers deserve, not because an agency just kind of wants it 
that way or because it is more convenient for the agency, but 
what is in the interest of the taxpayer. And I have to just 
tell you that from your agency and the data that you provided 
to the data that has been provided by outside third parties, it 
is really clear that there is only one jurisdiction in the 
National Capital region that is not treated with the same kind 
of transparency. You can't come to this committee and try to 
make another argument about fairness because the data just 
doesn't bear fruit.
    Mr. Barletta. Thank you, Ms. Edwards.
    The Chair now recognizes the former chair of the full 
committee, the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. And the last Member was 
usually very favorable towards the Government side of the 
equation, and I thought she framed my position very well. Look 
forward to working with her. In fact, I want to associate 
myself with her remarks.
    I guess there is some good news and some bad news, Ms. 
Robyn. The bad news first. Would you convey a message, tell Mr. 
Tangherlini, if GSA does not send a witness to my next hearing, 
they will be subpoenaed or I will come and sit in their office 
until I get the answers. This is on information technologies. 
Along with OMB. I can't conduct an oversight of $84 billion 
worth of information technology business that the Federal 
Government conducts without one of the prime participants; that 
is GSA. I know that is out of your purview, but if you ever see 
Tangherlini, just tell him I sent that message.
    Let's see, what should we take, the bad news or the good 
news? The good news is, Ms. Robyn, what to my wondering eyes 
should appear? I came into the office yesterday, maybe GSA was 
trying to give me some reason not to continue breathing because 
I gasped when I saw this: General Services Blanket Purchase 
Agreement for Real Property Sales and Support Services. Gasped 
in a pleasant way because I thought maybe we are heading down 
the path to doing something positive. This is just out, and 
what is the schedule for moving forward? Are you aware of this?
    Ms. Robyn. No.
    Mr. Mica. You aren't aware of it? General Services 
Administration, Public Building Service, Office of Real 
Property Utilization, a blanket purchase agreement. Did you 
talk about this before I got here?
    Ms. Robyn. No.
    Mr. Mica. Am I missing something? And you are aware of it? 
Hello, everything working here?
    Ms. Robyn. I am sorry. I work closely with our disposal 
office. That is something they put out. I don't know if that is 
something brand new.
    Mr. Mica. Hey, you should get acquainted with it, Robyn. I 
mean, things actually may happen in your agency. So I had a 
whole list of questions that I can't ask you about, but one you 
could get back with us. This would only deal with GSA 
properties, right? It wouldn't deal like Agricultural Research 
Service and some outside your purview. Would it or wouldn't it?
    Ms. Robyn. Well, without seeing it, we are the disposal 
agent for all agencies.
    Mr. Mica. OK. Well, tell me if that is the case if they 
will have that purview. Is this requirement, and I want to find 
out if it is on a national basis or is it going to be 
subdivided to regional where they can go in and take pieces of 
it?
    Then another question. And, staff, I hope you are taking 
these down because I want them in writing because sometimes 
they forget to respond. The third question would be, are there 
any impediments? The staff already cited to me the possible 
impediments to moving forward with some of this disposition of 
real property because of McKinney and other Federal statutes. I 
want an analysis of any impediments from you that might 
interfere with this, which is good news. Please be aware of the 
good news before you come next time.
    Ms. Robyn. Can I respond to that?
    Mr. Mica. Yeah, what the heck, go ahead.
    Ms. Robyn. Because I did in my opening statement, my 
written statement, I said what you, Congressman Mica, have 
heard me say before, the impediments, there are three major 
impediments to us disposing of a lot of Federal property.
    Mr. Mica. Well, again, in the context of this new venture, 
which you are not a whole lot aware of but should be, and I 
want to know if all of that, if the above applies or anything 
else because this is a little bit different approach. Quite 
frankly, I like it. I think it would be better if it was 
regionalized so we could go at it more effectively. It is hard 
to eat an elephant except a bite at a time.
    Ms. Robyn. We have three disposal regions.
    Mr. Mica. OK. Well, that is I guess some good news.
    DHS, no. We need to be dismantling DHS. One of the biggest 
mistakes we ever made was putting it together. We probably need 
a DHS of about 3,000 people that is connecting the dots instead 
of this huge bureaucracy. I am going to do everything I can to 
close down anything at St. Elizabeths, have done that to date, 
will continue. We have got Coast Guard there, God bless them, 
they deserve it, a billion dollars, we have got 3 million 
square feet, billions of dollars invested in the 
infrastructure, which is fine. Maybe in the future, maybe we 
can open up a disposition of Federal bureaucracy office there, 
and I would support that, but we won't get into that. I would 
just give you a little message.
    The other thing, Ms. Robyn, if you can get back with the 
committee, you know my slight interest ongoing in the Federal 
Trade Commission Building.
    Ms. Robyn. Yes.
    Mr. Mica. Which the consolidation of that single building 
over 20 years would save a half a billion dollars in taxpayer 
money. I don't know of any property where you could have it 
totally renovated, still keep it in the trusteeship of the 
Federal Government, like the 1932 FTC headquarters building and 
have it renovated for another purpose at nontaxpayer expense, 
which I would estimate to be $150 million to $200 million, and 
yet you persist in dividing up space which you are obligated to 
in the Constitution building. How much space was left there, 
450,000 square feet?
    Ms. Robyn. In which building?
    Mr. Mica. The Constitution Center, the one that you leased 
for Securities and Exchange Commission, signed a 10-year----
    Ms. Robyn. Oh, yes, yes. I think that is filled now.
    Mr. Mica. It is filled in your mind? Yeah.
    Ms. Robyn. Including with----
    Mr. Mica. And part with FTC?
    Ms. Robyn. Yes, I believe so.
    Mr. Mica. Then you crammed some other agencies in there to 
fill it so you couldn't properly move the FTC. Is that what we 
are looking at? Are the others moved in yet? Do I have to go 
down and chain myself to the door to stop that nonsense?
    Ms. Robyn. That is leased space. That is a lease.
    Mr. Mica. Has anyone moved in there? Has anyone moved in 
there yet?
    Ms. Robyn. Yes. Yes. I have not been there. I am told there 
are various financial regulatory agencies there.
    Mr. Mica. So the only way I can stop it is through some 
dramatic move?
    Are you moving the 217,000 square feet that was north of 
Union Station there first?
    Ms. Robyn. I am sorry?
    Mr. Mica. FTC had its secondary location was in, what do 
they call it, north of MOMA?
    Ms. Robyn. NOMA, NOMA.
    Mr. Mica. What is it?
    Ms. Robyn. North of Mass Avenue, NOMA.
    Mr. Mica. New Jersey Avenue property, have they moved out?
    Ms. Robyn. I am sorry, I don't know.
    Mr. Mica. Let the committee know.
    Ms. Robyn. Yes.
    Mr. Mica. I want a complete one-pager, break it down so 
even an idiot can understand it as to where you are in that 
process so I can dismantle whatever you are doing. Would you 
help me with that?
    Ms. Robyn. Yes.
    Mr. Mica. Thanks so much, Mr. Chairman. It is always a 
delight to be with this subcommittee.
    Mr. Barletta. Thank you, Mr. Mica.
    If, Dr. Robyn----
    Mr. Mica. Could we make--at least reference to this part of 
the record and would the staff make a copy for the----
    Mr. Barletta. So moved.
    [Please see pages 48-50 for responses from the General 
Services Administration to Hon. John L. Mica's questions.]
    Mr. Barletta. Dr. Robyn, if we could go back for just a 
moment on the Coast Guard property.
    Ms. Robyn. Yes.
    Mr. Barletta. So when you terminate actually, you will be 
paying rent for 2 years on the empty building that will cost 
$60 million?
    Ms. Robyn. Well, normally, I think the Congresswoman and I 
were talking past one another, and maybe--it sounds like we 
have a factual disagreement. This letter stated to Jeff Orner 
that we were getting ready to use our one-time termination 
rights. That means we walk away from a lease.
    Mr. Barletta. I believe it states that the earliest 
termination rate is in 2 years.
    Ms. Robyn. Well----
    Mr. Barletta. That is the earliest termination rate, which 
would mean that we would be paying rent on that building for 2 
years at a cost of $60 million.
    Ms. Robyn. Well, but this letter clearly says--our 
understanding--I mean, this letter says that doing this will 
save $60 million or avoid that $60 million. So that is why I 
think we have a factual misunderstanding about what the--I do 
not believe we are left with--if we were left with a $60 
million bill, we would be backfilling that. That doesn't make 
sense to me.
    Mr. Barletta. I believe that is exactly what is happening, 
and----
    Ms. Robyn. I will clarify that. I don't think that is 
right.
    [Please see pages 46-47 for responses from the General 
Services Administration to Hon. Lou Barletta's questions.]
    Mr. Barletta. All right. If I can go back to the reference 
of the possibility of buying Two White Flint.
    Ms. Robyn. Yes.
    Mr. Barletta. Representatives of the owners, as had been 
mentioned a little earlier, provided us with a copy of a letter 
that was sent to GSA. I will just read a small portion of it. 
``I spoke with the owner to the building, and the ownership has 
no interest in an option to purchase the property. As you are 
aware, the owner of this property holds property for the long 
term since a purchase option is not a possibility.''
    So if that is not an option, and we are considering 
purchasing the building, then I have to ask the question, if 
the owners aren't willing to sell, are you considering 
condemning the building, condemnation?
    Ms. Robyn. Let me start by saying, it is not unusual for, 
it is not unheard of for a lessor to say we don't want to sell 
the building. That can be part of their negotiation strategy. 
If, indeed, that is their position, I think our position should 
be that, again, depending on the cost, we are prepared to walk 
away from this building. I don't like----
    Mr. Barletta. So condemnation would not be an option?
    Ms. Robyn. Well, there are different flavors of 
condemnation. I think condemnation, as you are using the term, 
I think we would not do that. One, there are leasehold 
condemnations that we occasionally exercise in order to be able 
to gain additional time to vacate a building. We might exercise 
that sort of a, I believe it is called a leasehold 
condemnation. I don't like being in a position of negotiating 
with a lessor when we don't have choices. I think we need to be 
prepared to walk away from Two White Flint Mall if a lessor is 
not going to be reasonable.
    Mr. Barletta. The new $1.2 million Coast Guard headquarters 
required 1.6 million cubic yards of excavation, 250,000 cubic 
yards of concrete.
    Ms. Robyn. Yep.
    Mr. Barletta. Thirty miles of conduit and wiring, 40 miles 
of plumbing and piping. That was built in 4 years. The new 16-
story San Diego courthouse was constructed in 3 years. Now, 
according to the NRC/GSA estimates that it will take 4.5 years 
to seal a few garage and walkway connections between the two 
existing buildings. How is this possible?
    Ms. Robyn. I think it is a matter of expense, not the time 
involved. I will let my colleague speak to that, but I think it 
comes down to cost issues.
    Mr. Barletta. Mr. Borchardt, the lease at Three White Flint 
is $7 more per square foot than the rental cap for the suburban 
Maryland, and there are additional fees, including parking. 
Would the NRC commit to paying for the cost difference if 
another Federal agency moved into 3?
    Mr. Borchardt. I would have to ask to submit the answer to 
that in writing. I would need to go back and give the question 
to the Commission so that they could provide that answer.
    Mr. Barletta. Well, I am hearing a little misunderstanding 
with what GSA believes.
    Ms. Robyn. My understanding is they would pick up that 
incremental difference. We can backfill, there are plenty of 
opportunities to backfill the space in Three White Flint Mall 
that the NRC does not need. We cannot impose that incremental 
charge on another Federal agency. So my understanding is that 
the plan would be to have the NRC pick up that difference.
    Mr. Barletta. So do you believe the NRC would be willing to 
pay extra for a space it is not using, swallow the $90 million 
of extra costs in tailoring that building specifically for the 
NRC just to stay in Two White Flint?
    Mr. Borchardt. Mr. Chairman, I think there are important 
operational reasons for staying in Two White Flint. As to what 
additional financial burden we would accept is a matter that 
the Commission would have to decide themselves. I am not 
authorized to answer that.
    Mr. Barletta. But the Operations Center and the data center 
is in Three White Flint. I know there is a daycare center in 
Two White Flint. That certainly wouldn't be the reason to stay 
only, but the Operations Center, which I was very impressed 
with, is in Three White Flint. Wouldn't it make more sense?
    Mr. Borchardt. Yes. It is being moved to the third 
building. The special use facilities that would stay in Two 
White Flint are the hearing rooms for the Advisory Boards that 
provide expert advice to the Commission. Both of those have 
numerous public meetings and extensive public participation in 
the meetings. That, combined with the need to do security-
related classified discussions, are things that make the 
attributes of Two White Flint that are already cleared for 
those activities desirable.
    Mr. Barletta. Mr. Orner, you pointed out pilot programs DHS 
has implemented to test different workspace strategies, and you 
highlighted one example where DHS was able to put the same 
amount of people in 50 percent less space, saving $1 million. 
Can you explain how you were able to achieve that, and has 
there been any impact on the operations in that office?
    Mr. Orner. Well, I can, and that is my own office, so it is 
easy to talk about that. First of all, it took a fair amount of 
planning and preparation. We had to move to an information 
technology backbone where everybody has a cell phone and 
everybody has a laptop. Supervisors had to put in place new 
performance standards that were measuring outcomes so that we 
could get to the point where we are managing outcomes as 
opposed to simply keeping track of who shows up every day.
    Most members of the workforce don't have an assigned 
workstation. You go online once a week, and you sign up for: Am 
I doing something private this week that I can maybe do at home 
or am I collaborating with office mates? We have some open 
space, we have some more private cubicles.
    It is working out very well. The workforce is very pleased 
with it. It is a model that I would recommend on a much broader 
basis.
    Mr. Barletta. Mr. Holland, as you point out, HHS is already 
looking for opportunities to begin achieving your goal of 170. 
Recently the committee authorized two short-term leases for HHS 
as part of HHS's plan to move those offices into Parklawn in 
Maryland. By doing this the utilization rate will be reduced 
from 273 to 182. Are you still achieving that reduction?
    Mr. Holland. Yes, sir, we will. It does take the indulgence 
of the committee to extend those two leases a bit so we can 
finish the reconstruction of Parklawn, but we will get to 182.
    Mr. Barletta. Thank you.
    I will recognize the gentlewoman from Maryland, Ms. 
Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    I just want to be really clear--and again I appreciate the 
hearing--that I really value the service of the men and women 
at HHS, at NRC, at DHS, and GSA. I truly do. I just think that 
when you come before this committee and our responsibility is 
to figure out how it is that we can support the work of all of 
the good people who work at your agencies and throughout the 
Federal Government, that we also recognize that we have 
tremendous financial constraints, and that those constraints 
can be alleviated when we have an open, fair, and transparent 
process, and that there will be members on this committee who 
will be, you know, very greatly supportive of your efforts to 
consolidate, to move, and to anchor employees where it makes 
the most sense. But we have to save money in doing that.
    And so my comments earlier were more frustration about 
representing a jurisdiction that I just feel like there can be 
no argument anymore and that this process can't continue where 
we just hop and skip over a jurisdiction that, frankly, could 
save the taxpayer a lot of money. And I would urge each of you 
in your agencies, but most especially GSA, to be in the 
driver's seat, to be in the driver's seat when it comes to 
making those determinations. Because sometimes the agencies 
have their own interests, and I understand that, but GSA has to 
be the arbiter.
    And I would agree with Mr. Mica that it is more than past 
time for GSA and its leadership to formally appear before this 
committee and for us also to see the leadership of the Office 
of Management and Budget, because so many of these decisions 
hinge on things that GSA says, oh, we don't have any control 
over. But, you know, OMB. We need to see OMB and GSA at this 
witness table right here to respond to this concern even of 
Members who greatly value the service of our Federal workforce 
and aren't interested in tearing that down, but also will not 
stand for the taxpayer not getting the benefit of the bargain.
    And with that, Mr. Chairman, I yield.
    Mr. Barletta. Thank you, Ms. Edwards.
    Mr. Borchardt, you said that your goal was a utilization 
rate of 215 feet per person. All of your actual Federal 
employees and over 90 percent of everyone, including 
contractors, would fit in White Flint One and Three. With 
125,000 feet of satellite space, you can house everyone. Why 
not keep 1 and 3 and have one satellite office?
    Mr. Borchardt. My answer, Mr. Chairman, has to do with our 
mission of nuclear safety and protecting the public. As I 
mentioned, Three Mile Island taught us an important lesson 
about having a consolidated workforce. I believe the events at 
Fukushima, that the Japanese regulators suffered from having a 
dispersed regulatory staff and not a timely ability to address 
some issues that needed to be addressed.
    I think there can be nothing that is more important than 
accomplishing our mission of protecting public health and 
safety, and experience tells us that the best way to do that is 
to have a collocated workforce.
    Mr. Barletta. Two problems there. I mean, DHS right now 
obviously have security issues, and they have multitenant 
properties, they are able to do it. And besides, this makes the 
most sense because 90 percent of all your employees will be in 
two buildings plus a satellite. So I am confused, because 
basically you are saying is if you kept 1 and 2, you know, they 
could backfill 3, but if you kept 1 and 3, 90 percent of your 
employees would be together and one satellite. That would 
actually make your argument void.
    Mr. Borchardt. Well, I am respectfully not sure I agree 
with you that the argument is void. I think the face-to-face 
interaction that is required in order to both conduct our 
normal job of doing detailed technical reviews of nuclear 
reactor designs, for example, and then more importantly the 
ability for the staff to be able to get together in a facility 
like the Operations Center, as recently as a result of 
Fukushima when we staffed the Operations Center for months at a 
time, and after 9/11, that ability to be collocated and to do 
joint collaborative work is highly valuable.
    Mr. Barletta. Well, it will be because what you are asking 
to do, you want to have 1, 2, and 3, so you will be taking 
people out of two buildings to get them over to three, versus 
being in 1 and 3, having Three White Flint totally occupied 
where the Operations Center is, and then your only other 
employees would be over in 1. How does having people in 1, 2, 
and part of 3 achieve what you are saying?
    Mr. Borchardt. Well, because in my view that is one 
consolidated campus. Unless I misunderstood you, you were 
talking about having at least one more satellite office to 
house the remaining staff, because I believe we have provided 
information that demonstrates that the entire staff cannot fit 
into One White Flint and Three White Flint, the total of that. 
Plus there is the added complication, as I mentioned earlier, 
about the Advisory Committee and the hearing board, that we 
would need to find special facilities in order for them to do 
their jobs.
    Mr. Barletta. In meetings with your staff, the NRC stated 
that despite never using it in 60 years to acquire office 
space, the NRC has its own acquisition and leasing authority 
pursuant to the Atomic Energy Act of 1954. Is that the NRC's 
position, that like agencies such as SEC, the NRC can acquire 
and lease property on its own?
    Mr. Borchardt. I believe section 161 provides that 
authority. And I know that there have been discussions between 
the NRC legal staff and your legal staff. And so if more 
information is required, I would ask that we be able to provide 
that in writing.
    Mr. Barletta. Six years ago the NRC went around the 
committee authorization process and committed the taxpayers to 
$350 million for a building that you can't fill. Will the NRC 
and GSA be doing that again? Will you commit to abide by the 
longstanding committee process for authorizing leases?
    Mr. Borchardt. Well, Mr. Chairman, we clearly want to work 
with this committee and with the GSA for all future activities. 
We would continue to do that. I think when we go back into 
time, as I mentioned earlier, that as a result of the Energy 
Policy Act in 2005 and the renewed interest in nuclear energy, 
that there was great enthusiasm on the part of the Congress to 
make sure that the safety regulator was prepared to do all the 
work that was forecast to come to us. The decisions made were 
based upon our best information at that time. They were even, 
in my view, conservative at that time. We did not foresee the 
economic downturn nor the price of natural gas, which has 
resulted in the adjustments that we have had to make.
    Mr. Barletta. So is that a yes or a no?
    Mr. Borchardt. That we would continue to work with GSA and 
this committee, certainly.
    Mr. Barletta. Would you abide by the process? It would be a 
yes-or-no answer, would you abide by the process?
    Mr. Borchardt. On that question, I would have to go back 
and ask the Commissioners for their response.
    Mr. Barletta. So am I hearing--what you are saying is you 
don't know whether or not you will abide by the process.
    Mr. Borchardt. What I am saying is I don't have the 
authority to answer that question directly.
    Mr. Barletta. I actually don't know how to answer that.
    Dr. Robyn, we asked over a month ago whether GSA's 
inventory is actually shrinking and the data, for at least the 
last 5 years of the amount of space that is owned and leased, 
we have yet to get that information. Can you tell us today is 
GSA's inventory shrinking or is it growing, and when will we 
have that data?
    Ms. Robyn. I apologize, I did not realize you had asked for 
it. We will get it for you. I have a feeling you have that 
number and I don't have it handy. OK, you don't. I don't 
think--I think it has been fairly stable. I have been focused 
more on the leased-versus-owned proportion in trying to 
stabilize the amount of lease space, because much of this 
hearing has been devoted to the problems that occur when we 
are--we have agencies in leased space that have more 
specialized needs, but I will get you that.
    Mr. Barletta. I think----
    Ms. Robyn. Information.
    Mr. Barletta. I don't have the answer, I don't have the 
answer. But I think it is incredibly important that we know 
what our inventory is and how many employees are in those 
buildings because we really do need to get a grasp on it.
    Ms. Robyn. I know within, you know, I know within a very, 
within a couple of million square feet. Asking how many people 
are in our buildings, that is--that is a tougher question. And 
to go back to what I said earlier to Congresswoman Edwards 
about the dual role we play and the cop role that we have 
played, agencies historically have not been eager to share that 
information with us because we have played the cop role when it 
comes to disposal and other things. So we don't have the data 
on the number of people.
    Mr. Barletta. I believe we have the right to know that. I 
think when people at home are hearing this, it just again 
magnifies how dysfunctional Government is that we don't even 
know how many employees we have, Federal employees the 
taxpayers are paying for in a building. And we have agencies 
who believe they have the right to say, we don't think we want 
to reveal that information. I am telling you, that drives 
people crazy to believe that their Government would be so 
nonresponsive to very simple questions. And this would not 
happen in the private sector where you would have a department 
refusing to give you something so basic as how many employees 
do we have here.
    You know, if Federal employees are going to be so adamant 
about holding onto space. I have only been the chairman here 
for a very short time, and I have had an opportunity to do a 
couple of tours of buildings. And I am going to tell you, I 
didn't know if it was a Federal holiday in one of the 
courthouses I walked in, I couldn't find an employee. I didn't 
know if they had the day off. I don't believe--and I am not 
picking on just you, I am really talking to everyone, I don't 
think the President's recommendation that we shrink the 
footprint that Federal agencies begin to do the very necessary 
things as moving into smaller spaces, I don't think that is a 
suggestion. I think he means it and I think we mean it.
    It is very hard for us. I mean, when you are talking about 
cutting LIHEAP, heating assistance for elderly. And to sit 
through this and have Federal agencies tell you that need, we 
would prefer bigger space and we would prefer spending more 
money to have a nicer facility and space. Well, I could tell 
you that there are senior citizens who would prefer having 
heat.
    Mr. Borchardt, this is not acceptable, it is very hard for 
you to defend that. One hundred ninety-five square feet in 2007 
and 322 square feet today? I am going to disagree with you, in 
2007, you had 3,340 people, today it's 3,250 people and look at 
all the space you have. And to try to make an argument that we 
can't do anything when we have a committee that authorized 
120,000 square feet, but went out and they secured 443,000 
square feet, instead of $38 million we are costing the 
taxpayers $400 million. You had a real tough argument today and 
I don't think you made it.
    Mr. Borchardt. Mr. Chairman, I just want to reiterate that 
the NRC's committed to complying with the ``Freeze the 
Footprint'' initiative, we are proposing a solution that 
significantly reduces the number of square feet for the agency, 
giving up over--giving up approximately half of the Three White 
Flint facility and terminating the leases on all of the 
satellites.
    Mr. Barletta. But half of a building, you are willing to 
give up half of a building that you charged the taxpayers with 
$90 million to tailor-make it for you. What about that money? 
Can you imagine? Would you do that with your home?
    Mr. Borchardt. Well, as I mentioned, the way that situation 
developed was based upon the workload projections from the 
industry as a result of the Energy Policy Act of 2005. That 
hasn't materialized in the way it was projected. The Congress 
supported the NRC's plans for expanding the size of the staff.
    Mr. Barletta. I understand that, I understand what you are 
saying. OK, in 2007, for some reason, they anticipated hiring 
all these more employees and that didn't happen. We negotiated 
our right in Two White Flint, we negotiated that away for 
another piece of property. We have a building that it the owner 
said they don't want to sell. But here is what I am hearing 
today, we still don't believe that. We still want to be 1, 2 
and half of 3.
    I don't think you are getting it. I think it has been very 
difficult when you are sitting next to agencies who believe 
what the President said, that we should find ways to move into 
smaller spaces. DHS moved into 50 percent smaller space. There 
are ways to do it if we want to, I know what you would prefer. 
And I have to say that I am absolutely astounded that you can't 
say that the NRC will follow the law and abide by the 
authorization process, particularly when the NRC made such a 
mess of--of these leases. This wasn't caused by the taxpayers, 
this wasn't caused by the recession, this wasn't caused by the 
economy, this was caused by a Government agency, and we are 
asking you to fix it. And to sit and tell me that you can't 
tell me today that you will abide by the law is exactly why 
people believe the Government is just out of control.
    Mr. Borchardt. Well, Mr. Chairman, if I can just say that 
the NRC still firmly believes that we complied with the law, 
that the Atomic Energy Act provides us the authority.
    Mr. Barletta. The Chair recognizes Ms. Edwards.
    Ms. Edwards. Thank you just very briefly, and I know the 
ranking member has returned. I just want to be clear Dr. Robyn, 
do you believe that you have the statutory and or regulatory 
tools to demand from agencies the leases that they have, the 
terms of those leases and the numbers of employees who were 
filling each one of those leaseholds?
    Ms. Robyn. I don't know the answer to that question. The 
last administration created the Federal Property Council the 
Federal Real Property Profile. We are collecting data, a lot of 
data, it is problematic. We are reliant on agencies, GAO has 
pointed out problems with it. I am not sure whether the number 
of employees is part of what we collect. I know we do not have 
data on a number of employees. It is not always a simple 
question as you have got contractors, you have got people who 
are virtual--so it isn't a simple matter. I know that it would 
help us a lot to have better data. I don't know how----
    Ms. Edwards. But are you saying that right now the way that 
you get that data is because agencies voluntarily provide it 
when you request it?
    Ms. Robyn. Well, it is a little more than voluntary, the 
Federal Real Property Profile, OMB is the enforcer and so they 
give us data that is part of the FRPP. It is--we are dependent, 
it is another part of GSA. And I apologize, that is why I don't 
know some of the details, it is the Office of Government-wide 
Policy in GSA. There are issues with some of the data as GAO 
has pointed out. And we are taking steps to try to clarify the 
definitions and come up with some better metrics.
    Ms. Edwards. So if this committee asks you for information 
and there is not a formal mechanism by which every agency has 
to provide that to you.
    Ms. Robyn. Certainly on any new lease or prospectus, we 
know how many people. We do detailed calculations of 
utilization.
    Ms. Edwards. The problem is, and I think the chairman has 
pointed this out, that it makes it really difficult for us to 
grab our hands around what it means to consolidate and reduce 
the footprint if when we ask you what is out in the ether, and 
you can't grab your hands around it. And I just want to know 
from each of the agencies whether you feel that you have a 
statutory or regulatory obligation to timely, and often, 
regularly provide that information to GSA?
    Ms. Robyn. Can I just clarify between two different issues, 
one is footprint. The OMB policy deals with square--it is a 
square-footage number, and we have worked with every single 
agency that falls under that policy, the CFO agencies, there 
are 24 of them. And we have given them their baseline figure, 
that is based on data from the Federal Real Property Profile 
from GSA leases and from their own leases that they have 
independent leasing authority. We know, we know that you will 
see that number on performance.gov.
    The harder thing is calculating on buildings that are not 
subject to lease renewals, what utilization is because we don't 
always have the best data on the number of employees in it, 
that is a utilization number.
    Ms. Edwards. Well, couldn't get that just by asking the 
agency? I mean, the agency surely must know.
    Ms. Robyn. I think it probably is part of the FRPP, it is 
just not, it is not--it is something that is not reliable.
    Ms. Edwards. Any of the agencies comment on that and then I 
will yield.
    Mr. Holland. Congresswoman, I don't know what the statute 
says, but if Dr. Robyn had asked me for those numbers, I would 
find them.
    Mr. Orner. We absolutely feel we have an obligation to 
share those data with OMB, with GSA and with this committee.
    Mr. Borchardt. I also personally don't know what the legal 
obligations are but we would be more than happy and we have in 
the past shared that information freely.
    Mr. Holland. The one thing I would add, Congresswoman 
Edwards, it is, like Dr. Robyn said, not an easy question. I 
mean, the numbers of people in our buildings, we have 50 
million square feet of real estate, it changes almost hourly, 
and it is a source of frustration for me and the Secretary to 
try to figure out at any particular given day, but we have 
general round numbers that we provide.
    Mr. Orner. And to clarify, there is difference between the 
number of Federal employees assigned to a particular building, 
and the number of people who actually show up there on a 
particular day which may also include contractors, people from 
other agencies that may be detailed there, and so forth.
    Mr. Barletta. Thank you, Ms. Edwards. The Chair now 
recognizes Ranking Member Norton.
    Ms. Norton. Thank you, Mr. Chairman. Two hearings going on 
at the same time. And I don't have any questions, but I do want 
to make clear. Mr. Chairman, the NRC got into this problem for 
the same reason that the SEC got into the same problem last 
Congress. The SEC problem created a terrible scandal because 
SEC went out and just rented, I mean, it did something 
comparable to what happened here, they rented office space, 
much more than any agency could possibly use, and then, of 
course, they fell back on SEC to help us get rid of it when 
Congress discovered it. Now we have the same thing happening 
with the NRC. And what they have in common is that both had 
independent authority, rare, very rare, never should have been 
done. I am going to introduce a bill, actually, if the chairman 
wants it to be his bill, I will go in it with him, that 
rescinds the independent leasing authority of the Nuclear 
Regulatory Agency.
    Isn't it interesting that they never used it until now and 
they have had it since 1954; and they use it and they get a 
situation like they got at White Flint.
    Mr. Chairman, on the SEC, the SEC voluntarily, at least 
administratively, gave up its independent leasing authority. I 
put in a bill for that as well. I think both of them should be 
part of the same bill, and part of the policy of this 
committee, that no agency should have independent leasing 
authority because then you have no connection to the taxpayers, 
and people essentially are on a journey of their own to find 
out that the space on their wish list. It can not be exercised 
responsibly, so I believe certainly with the NRC, to be sure 
the SEC has given it up administratively, but I don't see why 
they both shouldn't be in the same bill.
    I want to remind Dr. Robyn that in 30 days, we want to know 
what she is doing to keep--I am telling you, reporters are 
going to be up there taking pictures of an empty building. We 
had this happen once before when I first came to Congress, I 
think it was the FCC building and the GSA allowed the agency to 
essentially refuse to move into the building, and so it became 
a story day after day in Washington about how we were paying, 
the taxpayers were paying rent on this building. That is going 
to happen on that building. And if all you can say is well, we, 
you know, we are not paying as much as we might have, that 
won't get you very far when this begins to be spotlighted.
    So in 30 days we want to know how you keep an empty 
building, what you are doing to mitigate that. If there is 
anything you can possibly do, and if not, why not?
    And finally on the present predicament of NRC, I would say 
that it is important for Dr. Robyn to submit to the committee a 
plan, an NRC housing plan. And I don't think that you can 
expect this committee to take any action absent a plan. And 
even if there is one, I am not sure what we will be able to do 
for the NRC, but I will leave that to discussions I will have 
with the chairman. I thank you, Mr. Chairman.
    Mr. Barletta. Thank you. Mr. Borchardt, before we conclude, 
do all your employees and contractors respond to disasters?
    Mr. Borchardt. There are certainly a core number of 
technical experts that respond. I think the answer to you is 
no, although the entire agency would go into some kind of 
support function. So I mean, by that I mean the information 
technology staff person might not respond to the op center 
immediately.
    Mr. Barletta. So it would be possible to house those 
employees in one of the satellite buildings if necessary, those 
that weren't responding directly to a disaster.
    For Ranking Member Norton's benefit while, she was gone, 
one of the questions we were discussing was 6 years ago, that 
the NRC went around the committee authorization process and 
committed the taxpayers to $350 million for a building that 
they can't fill. And the question was, will they commit today 
to abide by the longstanding committee process for authorizing 
leases, and the answer was they could not commit to that, that 
they would have to go back.
    Ms. Norton. To see whether they will follow the law?
    Mr. Barletta. Correct. So I want to just close with this 
why, why did the NRC go around the committee authorization in 
2007?
    Mr. Borchardt. Well, first of all, I would like to say that 
without a doubt, the NRC will follow the law. There is no doubt 
about that. As I mentioned, the Atomic Energy Act provides us 
certain independent authorities. And the purchase of Three 
White Flint we did that in coordination with the GSA, so we 
didn't act, operate completely on our own. And I am sorry, I 
forgot----
    Mr. Barletta. What did the NRC----
    Mr. Borchardt. Well, I think the situation, as I mentioned, 
was again, as a result of the Energy Policy Act in 2005, there 
was a great enthusiasm. The Congress expressed great interest, 
in fact, even concern about the NRC's ability to respond in a 
technically credible and timely manner to the applications that 
were projected to come before us. As a result of that, we were 
authorized both an increase in staffing levels as well as 
authorization to construct the Three White Flint building.
    Mr. Barletta. And at the time the committee authorized 
120,000 square feet, which is exactly what you need?
    Mr. Borchardt. Well, in the time period around 2007, 2008 
time period, the projected applications for new reactors was 
increasing, so that the original forecast for space needs grew, 
and that is how we ended up with the facility that we now have.
    Mr. Barletta. But ignoring the committee's authorization of 
120,000 and build out 443,000, that is not double.
    Mr. Borchardt. Yeah, based upon the appropriations that we 
received.
    Mr. Barletta. At a cost of $400 million versus $30 million.
    Thank you all for your testimony. Your comments have been 
helpful to today's discussion. If there are no further 
questions I would ask unanimous consent that the record of 
today's hearing remain open, until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing. And unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing. Without objection, so ordered. I would like 
to thank our witnesses again for their testimony today. If no 
other Members have anything to add, this subcommittee stands 
adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]



</pre></body></html>
